No. 20-5279

 

INTHE

Supreme Court of the United States

WILLIAM DALE WOODEN,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

BRIEF OF THE RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER AS AMICUS
CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,369 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 10, 2021.

 

Wilson-Epes Print{ng Co., Inc.
